No. 19-1277

miTts

Supneme @owit

t&e United States

Octoikn, *7enm, 2020
DAVID THORPE, Petitioner,
v.

DEXTER DUMAS, an individual, GEORGE JENKINS, an
individual, LAUREN BOONE, an individual, JEFFREY S. CONNELLY, an
individual, FANI WILLIS, an individual, and URAL GLANVILLE,
an individual, Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE 11* CIRCUIT

PETITION FOR REHEARING

David Thorpe
Pro Se
4902 Fielding Way
Stone Mountain, GA 30088
willcora@msn .com
404-428-8276

October 29, 2020

Table of Contents
Table of Contents.

2

Table of Authorities

3

Petition for Rehearing

4

Reasons to Grant the Petition ...

4

Conclusion

6

Certificate of Counsel

7

2

Table of Authorities
Cases
.6
6
4

Harlow v. Fitzgerald 457 U.S. 800(1982)
Pearson v, Ray 386 U.S. 547 (1967)____
Thorpe v. Dumas, et. al No. 19-1277.......
Rules
Supreme Court Rule 44.1.... .....................

4

3

Petition for Rehearing
Pursuant to Supreme Court Rule 44.1. David Thorpe respectfully petitions for
rehearing of the Court’s per curiam decision issued on October 5, 2020. Thorpe v.
Dumas, et. al No. 19-1277. David Thorpe moves this court to grant this petition for
rehearing and consider his case on its merit. Pursuant to Supreme Court Rule 44.1,
this petition for rehearing is filed within 25 days of this Court’s decision in this case.

Reasons to Grant the Petition
This case involves six government officials at different stages of a criminal
process violating an innocent citizen constitutional right. Not one official acted in
earnest good faith. Now over six years later, no criminal actions have been sought
against anyone (false imprisonment) the police department did nothing internally,
the bar association elected not to act against any of their rule violators and the lower
federal courts have perpetuated federal civil rules and common laws that appear on
the surface to apply but upon simple examination do not! Said courts have also biasly
abused any discretions that would have considered any issues of merit. This supreme
court has before them a case that involves a police officer, prosecutors, and a judge.
The opportunity for the justices to address the three most common immunities and
their unfair laws and doctrine is God sent and well overdue. Please restore some
faith in our shameful justice system.

Remove immunities for officials who

intentionally violate our fellow citizens rights.

4

Thorpe believes that Thorpe’s Writ of Certiorari in this court was weeded out
by the mere mention of 42 U.S. §1983. This is not justice, at the district level, Thorpe
stood no chance because of an abuse of discretion. At the appeals level, Thorpe stood
no chance because of the same abuse of discretion. As a citizen, essentially a layman,
Thorpe should not have to provide case law of what is right and what is wrong when
it comes to government judicial officials and officers intentionally violating innocent
citizens rights and freedoms.
Thorpe believes in the time that it has taken you the reader to read this
request, that a police officer, and/or a prosecutor and/or a judge has violated another
citizen’s constitutional rights.

Not because this person was bom this way, but

because your immunity laws has bread them. You have given birth to this new type
of criminal. One that states firmly, I have immunity even when they intentionally
without good faith take away someone’s freedom, income, and pursuit of happiness!!!
If a person that was truly attempting, earnestly attempting to pursue or achieve
justice they would know that giving anyone I repeat anyone absolute immunity
complete

immunity in any form against intentional violations of another’s

constitutional rights, constitutional freedoms, or simple promises of protection from
the same constitution you would come to the conclusion that it is contrary to
righteousness . Even when the supreme court has on the surface attempted to hold
government officials and officers accountable the outcome was in essence a ruse! (I
am sorry!!)

5

Thorpe was bom in 1967 that is also the same year that Pearson v. Bay 386
U.S. 547(1967) was heard, and qualified immunity was introduced. Also, let Thorpe
add Harlow v. Fitzgerald 457 UJ5. 800 (1982) was considered at that time to be a
more modem take on the same immunity. To look at qualified immunity, now, it
appears to be yet another booby-trapped riddled obstacle course to justice. How these
doctrines and common laws still stand in this country in 2020 is dishonorable.
Outright dishonorable. If this Petition for Rehearing offends you, perhaps you have
lost your perception of justicel Nonetheless I implore you to read the questions
<.

. presented and the reasons to grant the Writ of Certiorari.
Conclusion
The cry of our nation for justice reform reverberates throughout the free world.
I, David Thorpe, firmly states “true justice reform despite the agenda shall not
commence until those who govern it are themselves equally subservient and held to
the same ramifications” Please, please grant this Petition for Rehearing and ensure
that the justices themselves read it.

Zo
David Thorpe
ProSe
4902 Fielding Way
Stone^Mnuntain, GA 30088 404-428-8276
willcora@msn.com
6

r

V

s

tr

<?

CERTIFICATE OF COUNSEL
I

ft

I hereby certify that this petition for rehearing is presented in good faith and
not for delay.
The grounds of the petition are limited to intervening circumstances of
substantial or controlling affect or to other substantial grounds not previously
presented

David Thorpe
4

iP*

